            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
      STATE OF NEW HAMPSHIRE
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2001

    November 2002   A-77-03-00002




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      SOCIAL SECURITY
MEMORANDUM

Date:   November 12, 2002                                                    Refer To:

To:     Candace Skurnik
        Acting Director
        Management Analysis and Audit Program Support Staff

From:   Assistant Inspector General
         for Audit

Subject:   Management Advisory Report on the Single Audit of the State of New Hampshire for
           the Fiscal Year Ended June 30, 2001 (A-77-03-00002)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of New Hampshire for the Fiscal Year ended June 30, 2001. Our
        objective was to report internal control weaknesses, noncompliance issues, and
        unallowable costs identified in the single audit to SSA for resolution action.

        KPMG LLP performed the audit. The Department of Health and Human Services’
        (HHS) desk review concluded that the audit met Federal requirements. In reporting the
        results of the single audit, we relied entirely on the internal control and compliance work
        performed by KPMG LLP and the reviews performed by HHS.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The New Hampshire Disability Determination Services (DDS) performs disability
        determinations under SSA’s DI and SSI programs in accordance with Federal
        regulations. The DDS is reimbursed for 100 percent of allowable costs. The New
        Hampshire Department of Education is the New Hampshire DDS’ parent agency.

        The State did not adhere to the clearance method timetable in the Cash Management
        Improvement Act (CMIA) agreement when drawing Federal funds (see Attachment).
        The corrective action plan indicates that they will work to ensure the efficient transfer of
        funds and will continue to monitor agency draw downs of funds.
Page 2 - Candace Skurnik

We recommend SSA ensure that the State has implemented procedures for drawing
Federal funds in accordance with the clearance pattern timetable in the CMIA
agreement.

Please send copies of the final Audit Clearance Document to Mark Bailey in
Kansas City and Paul Wood in Baltimore. If you have questions contact Mark Bailey
at (816) 936-5591.




                                       S
                                       Steven L. Schaeffer

Attachment
                                                                                                Attachment

                  STATE OF NEW HAMPSHIRE - FISCAL YEAR 2001 SINGLE AUDIT

        SCHEDULE OF COMPLIANCE FINDINGS AND QUESTIONED COSTS
             FOR THE YEAR ENDED JUNE 30, 2001 (CONTINUED)

NHDepartment of Treasury
US Department of Treasury                                                                Finding 2001-10


CFDA # 12.401                    National Guard Military Operations & Maintenance Projects

CFDA # 96.001                    Social Security Cluster
CFDA # 96:006


Finding:
The Cash Management Improvement Act of 1990 (CMIA) is intended to improve the transfer of federal funds
between the federal government and the states, territories and the District of Columbia by minimizing the time
between the transfer of funds to the states and the payout for the program purposes and ensuring the federal funds
are available when requested.

The State of New Hampshire uses the dollar-weighted-average clearance method to determine the date federal
funds are requested from the awarding agencies. The requirement under Treasury Regulation 31 CFR part
205.7(c)(3) states that a state shall request funds one business day prior to the dollar-weighted-average number of
days required for funds to be paid out after a disbursement, and a federal agency shall deposit funds in a state
account the next business day after receiving a request for funds.

Certain New Hampshire State agencies have been requesting funds from the federal agencies later than required,
sometimes up to ten days late. We noted that 6 of 30 (20%) cash draws tested were initiated two to ten days later
than required. Deviation from the agreed upon average clearance patterns results in the disruption of the efficient
transfer of funds between the federal government and the State. Late drawdowns are also an inefficient way to
manage cash.

A similar finding was noted in the fiscal year 2000 Single Audit report.

Questioned Costs: None

Recommendation:
We recommend that State agencies adhere to the timetable under the average clearance method when requesting
reimbursement from its federal awarding agencies.

Auditee Corrective Action Plan:
Treasury concurs and understands the importance of efficient transfer of funds from federal awarding agencies to
State agencies. The NH Integrated Financial System CMIA module provides the basis for agency drawdown
guidance in terms of date on which to request funds based on expenditures. Treasury will continue to monitor
agency drawdowns and work with those agencies that consistently draw funds later than required. The contact
person is Rachel Miller, Deputy State Treasurer. The anticipated completion date is December 31, 2002.
                   Overview of the Office of the Inspector General

                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
